                                        SOCIAL SECURITY
MEMORANDUM

Date:      September 27, 2012                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Plan to Reduce Improper Payments Under
           Executive Order 13520, as Reported in March 2012 (A-15-12-12141)


           The attached final quick response evaluation presents the results of our review. Our
           objectives were to review the Social Security Administration Accountable Official’s
           Annual Report to the Office of the Inspector General, as required by Executive Order
           13520, Reducing Improper Payments, and determine whether the (1) figures presented
           were accurate and (2) Agency complied with all requirements of the Executive Order.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

           Attachment
  QUICK RESPONSE
   EVALUATION
  The Social Security Administration’s
Plan to Reduce Improper Payments Under
   Executive Order 13520, as Reported
             in March 2012

            A-15-12-12141




           September 2012
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                      Background
OBJECTIVES
Our objectives were to review the Social Security Administration (SSA) Accountable
Official’s Annual Report to the Office of the Inspector General (OIG), as required by
Executive Order 13520, Reducing Improper Payments, and determine whether the
(1) figures presented were accurate and (2) Agency complied with all requirements of
the Executive Order.

BACKGROUND
On November 20, 2009, the President signed Executive Order 13520. 1 The Executive
Order provides that, when the “Government makes payments to individuals and
businesses, [such] as program beneficiaries, grantees, or contractors, or on behalf of
program beneficiaries, it must make every effort to confirm the right recipient is
receiving the [correct] payment . . . .”2 The purpose of the Executive Order “. . . is to
reduce improper payments by intensifying efforts to eliminate payment error, waste,
fraud, and abuse in the major programs administered by the Federal Government, while
continuing to ensure Federal programs serve and provide access to their intended
beneficiaries.” 3

As part of the requirements of the Executive Order, 4 each agency with a high-priority
program identified by the Office of Management and Budget (OMB) shall, within
180 days of the Order, provide the agency’s OIG a report containing the

1. methodology for identifying and measuring improper payments by the agency’s
   high-priority programs;
2. plans, along with supporting analysis, for meeting the reduction targets for improper
   payments in the agency’s high-priority programs; and
3. plan, along with supporting analysis, for ensuring that initiatives undertaken pursuant
   to the Order do not unduly burden program access and participation by eligible
   beneficiaries.

Within 180 days of the issuance of the Order and at least once every quarter thereafter,
each agency head is also required to submit to the agency’s OIG and the Council of
Inspectors General on Integrity and Efficiency (CIGIE), and make available to the public,

1
    Reducing Improper Payments, 74 Fed. Reg. 62201 (published November 25, 2009).
2
    Id at Sec. 1.
3
    Id.
4
    74 Fed. Reg. 62202, Section 3(b).


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)    1
a report on high-dollar improper payments identified by the agency, subject to Federal
privacy policies and to the extent permitted by law. 5 Agencies are also required to place
a prominently displayed link on their Internet homepages to resources for addressing
improper payments. 6 Such resources include information about improper payments
under high-priority programs and a central method for collecting information concerning
suspected incidents of fraud, waste, and abuse by an entity receiving Federal funds that
has led or may lead to improper payments by the Government. 7 These resources are
required to be published by the Secretary of the Treasury in coordination with the
Attorney General and the Director of OMB. 8

HIGH-PRIORITY PROGRAMS

OMB guidance specifies how it will determine the high-priority programs as required
under section 2(a)(i) of Executive Order 13520. 9 The Director of OMB will determine
high-priority programs annually based on improper payment reporting in agencies’
annual Performance and Accountability Reports (PAR) or Agency Financial Reports
(AFR). 10 The Director of OMB will classify a program as high priority if the program
meets the following criteria. 11

1. It is susceptible to significant improper payments, as defined by legislation and OMB
   implementing guidance and either
          •   Measured and reported errors above the threshold determined by OMB, and
              contributed to the majority of improper payments in the most recent reporting
              year; or
          •   Has not reported an improper payment dollar amount in the most recent reporting
              year, but has in the past reported errors above the threshold determined by OMB
              and not received relief from OMB from measuring and reporting; or
          •   Has not yet reported an overall program improper payment dollar amount, but the
              aggregate of the measured program’s component errors are above the threshold.




5
    74 Fed. Reg. 62203, Section 3(f).
6
    74 Fed. Reg. 62202, Section 2(d).
7
    74 Fed. Reg. 62201 to 62202, Sections 2(b) and 2(c).
8
    Id.
9
 OMB, M-10-13, Circular A-123, Management’s Responsibility for Internal Control, Appendix C, Part III,
Requirements for Implementing Executive Order 13520: Reducing Improper Payments, Section (A)(1)(e),
March 22, 2010 page 5.
10
     Id.
11
     Id.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)              2
2. For those programs with error amounts close to the threshold, but with error rates
   below 2 percent of program outlays, agencies may work with OMB to determine
   whether the program can be exempt from fulfilling certain requirements of the
   Executive Order.

The Fiscal Year (FY) 2010 threshold was $750 million in improper payments, as
reported in each agency’s PAR or AFR. 12

IMPROPER PAYMENTS

Each year, SSA reports payment accuracy rates for the Retirement, Survivors and
Disability Insurance (RSDI) and Supplemental Security Income (SSI) programs based
on its stewardship reviews. The Agency uses the reviews as the basic measure to
report on the accuracy of benefit payments. Each year, SSA reports over- and
underpayments from its stewardship reviews of nonmedical aspects of the Retirement
and Survivors Insurance (RSI), Disability Insurance (DI), and SSI programs. In
accordance with OMB’s guidelines, 13 implementing the provisions of the Improper
Payments Information Act of 2002 (IPIA), 14 SSA reports payments that should not have
been made or payments that were made in an incorrect amount as improper.
Stewardship review findings provide the basis for reports to monitoring authorities. The
Agency also uses data from these reviews in corrective action planning and monitoring
performance, as required by the Government Performance and Results Act of 1993. 15

Payment accuracy rates developed in SSA’s stewardship reviews reflect the accuracy
of payments issued to RSDI beneficiaries and SSI recipients who received or were
issued a payment for the sample month. Each month, the Agency selects a statistically
valid national sample from the payment rolls, which consist of RSDI and SSI
beneficiaries in current pay status. For each sample selected, the recipient or
representative payee is interviewed; collateral contacts are made, as needed; and all
nonmedical eligibility factors are redeveloped as of the current sample month. The
Agency inputs the findings into a national database for analysis and report preparation.
Separate rates are determined for accuracy of payments in terms of over- and
underpayment dollars.




12
     Id., at page 6.
13
  OMB, M-03-13, Implementation Guidance for the Improper Payments Information Act of 2002, Pub. L.
No. 107-300, (May 21, 2003) page 1.
14
     Pub. L. No. 107-300, Section 2, 116 Stat. 2350, (2002).
15
     Pub. L. No. 103-62. Section 4, 107 Stat 285, 286 (1993).


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)              3
                                                               Results of Review
Our review determined that the Agency (1) generally met the requirements of Executive
Order 13520 and (2) accurately reported improper payment information except for three
instances.

REQUIREMENTS OF EXECUTIVE ORDER

In March 2010, OMB issued guidance 16 for implementing the requirements of the
Executive Order. We reviewed the Accountable Official’s March 14, 2012 Annual
Report to ensure the Agency addressed all requirements of the Executive Order.

Methodology for Identifying and Measuring Improper Payments

The first requirement OMB issued states that the Annual Report must describe the
agency’s methodology for identifying and measuring improper payments in the agency’s
high-priority programs. 17 This information should include the IPIA program error
measurement methodology, sample size, and related calculations; results of annual
measurements; and applicable other measurement-related information. 18

In its Annual Report, SSA described the stewardship reviews it used to measure the
accuracy of payments to beneficiaries in current payment status. Each FY, the Office of
Quality Performance (OQP) conducts stewardship reviews of both the RSDI and SSI
payments issued in that FY. OQP based the stewardship reviews on a monthly sample
selection from RSDI and SSI recipients in current pay status. In FY 2010, OQP
reviewed about 1,760 RSDI and 4,304 SSI cases to determine the payment accuracy
rates. If OQP detected an error, it determined whether the payment error met the
definition of improper (see Appendix D). If a program payment was not considered
unavoidable, 19 it was included in the projection of improper payment dollars.

SSA’s Annual Report presented the payment accuracy results from the stewardship
reviews through tables titled, Improper Payments Experience FY 2008 – FY 2010. This
information, along with the description of the Agency’s methodology for identifying and
measuring improper payments for high-priority programs, satisfied OMB’s first
requirement.



16
     OMB Circular A-123, supra note 9, Appendix C, Part III.
17
     Id., Sec. C(2)(b) page 16.
18
     Id., Sec. C(2)(c)(1) page 17.
19
  Unavoidable payments are payments that result from legal or policy requirements. These payments
are not considered “erroneous” by SSA (see Appendix D of this report).


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)             4
Plan for Meeting the Reduction Targets for Improper Payments

The second OMB requirement states that the Annual Report must contain the agency’s
plan and supporting analysis for meeting the reduction targets for improper payments. 20
This requirement includes

1. root causes of errors in the program;
2. corrective actions being implemented and their full implementation dates;
3. the types of errors the corrective actions will address and their expected impact;
4. the anticipated costs of the corrective actions and their likely return on investment;
   and
5. an explanation of the program’s performance in meeting its reduction targets.

The Agency did not provide all of the required information for the SSI corrective actions
reported.

RSDI

On April 22, 2010, OMB confirmed that SSA was not required to establish supplemental
measures and targets for the RSDI program because the payment accuracy rate was
below OMB’s threshold of payment errors of less than 2 percent of program outlays.
However, SSA still fulfilled other transparency-related reporting by describing root
causes of over- and underpayments.

SSA’s Annual Report states the root causes of RSDI overpayments were substantial
gainful activity, computations, and Government Pension Offset. The root causes of
RSDI underpayments were computations, earnings history, and workers’ compensation.
To mitigate these improper payments, SSA identified various areas to analyze to
potentially reduce payment errors, including 21

1. targeting work continuing disability review (CDR) cases that are over 365 days old
   and gradually reducing the age threshold;
2. piloting the use of a statistical predictive model to help identify beneficiaries who are
   at risk of receiving high earnings-related overpayments;
3. simplifying policies and procedures to improve the quality of work CDRs and reduce
   improper payments; and
4. requesting reauthorization of the demonstration authority to allow testing of
   important improvements in the DI return to work rules.


20
     OMB Circular A-123, supra note 9, Appendix C, Part III, Sec. C(2)(c)(2) page 17.
21
 SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments,
March 2012, page 7 and 8.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)         5
SSI

The Annual Report also described the root causes of SSI over- and underpayments.
The major causes of SSI overpayments were excess financial accounts, wages, and in-
kind support and maintenance (ISM). The main causes of SSI underpayments were
living arrangement “A,” 22 wages, and ISM. The Agency developed corrective actions to
help mitigate improper payments in the two consistently high error categories: excess
financial accounts and wages. These corrective actions included (1) access to financial
institutions (AFI) and (2) Supplemental Security Income Automated Telephone Wage
Reporting System (SSITWR).

        AFI is an electronic process that verifies bank account balances with financial
institutions to determine SSI eligibility. AFI also detects undisclosed accounts by using
a geographic search to generate requests to other financial institutions. As of June
2011, the Agency had successfully completed the AFI rollout to all 50 States. The
Agency projects that once the program is fully implemented, it will save $900 million in
lifetime program savings each year. The Agency did not report the full implementation
date or anticipated costs for this corrective action, as required by the Executive Order. 23
The Agency stated it is reviewing its strategy regarding full implementation of AFI.

       SSITWR is a dedicated telephone number that allows individuals to report their
wages via a voice-recognition system. Stewardship data indicated that wage-related
overpayment dollars resulted from fluctuating income and failure to timely report an
increase in wages. To simplify the reporting process, SSA created the SSITWR. In
May 2009, SSA required that field offices recruit all recipients and representative
payees, as well as household members who influence the recipients’ payments, to
report their wages using SSITWR. As stated in the March 2012 report, SSA’s goal was
to increase the number of monthly reporters participating in the SSITWR initiative to
31,486 by the end of FY 2012. As of February 2012, SSA was reporting 31,881 unique
wage-reporting participants. SSA planned to conduct targeted outreach to encourage
representative payees of working SSI recipients to report wages using SSITWR. The
Agency did not report the program’s expected impact, as required by the Executive
Order. 24

The Agency also developed supplemental measures and targets for the SSI program,
as required by the Executive Order, 25 to address overpayments due to a change that
affects payment amount or eligibility and overpayments due to unreported wages. The
supplemental measures and targets included (1) SSI non-disability redeterminations

22
  Living Arrangement “A” is used primarily when a person is considered to be living in his/her own
household. This occurs when SSA paid a person as if he/she were living with someone else when, in
fact, the recipient qualifies for a higher payment level, such as for those who live alone.
23
     OMB Circular A-123, supra note 9, Appendix C, Part III, Sec. C(2)(c)(2) page 17.
24
     Id.
25
     OMB Circular A-123, supra note 9, Appendix C, Part III, Sec. B (2) page 10.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)              6
and (2) SSITWR. For SSI non-disability redeterminations, SSA’s supplemental target
was to conduct 2.6 million redeterminations in both FYs 2012 and 2013. The targets for
the SSITWR program are noted in the SSITWR section on the previous page.

Plan for Ensuring the Initiatives Do Not Unduly Burden Program Access

OMB’s final requirement is that the Annual Report must contain an agency’s plan,
together with supporting analysis, for ensuring that initiatives undertaken to implement
the Executive Order do not unduly burden program access and participation by eligible
beneficiaries. 26 OMB will provide further guidance for this requirement; therefore, this
requirement was not included in the Agency’s Annual Report. Once available, we will
review the applicable guidance and ensure future Agency reports contain the required
information.

Quarterly High-Dollar Report to the OIG and CIGIE

Along with the Annual Report to the OIG, the Executive Order also requires that each
agency with programs susceptible to significant improper payments under IPIA submit a
report to the OIG and CIGIE on any high-dollar overpayments identified by the
agency. 27 According to OMB guidance, 28 a high-dollar overpayment is any
overpayment that exceeds 50 percent of the correct amount of the intended payment
where the
1. total payment to an individual exceeds $5,000 as a single payment or in cumulative
   payments for the quarter; or
2. payment to an entity29 exceeds $25,000 as a single payment or in cumulative
   payments for the quarter.
SSA submitted quarterly high-dollar reports to the OIG and CIGIE for the reporting
period starting June 2010 and all subsequent quarters thereafter. The OIG issued a
report in December 2011 30 covering the high-dollar reporting periods December 2010
and March, June, and September 2011. We will issue a report on our review of the
Agency’s high-dollar reports for FY 2012 under a separate cover.



26
     OMB Circular A-123, supra note 9, Appendix C, Part III, Sec. C (2)(c)(3) page 17.
27
     74 Fed. Reg., supra note 1 62203, Sec. 3(f).
28
     OMB Circular A-123, supra note 9, Appendix C, Part III, Sec. C (3)(e) page 18.
29
  As stated in OMB Circular A-123, supra note 9, Appendix C, Part III, Sec. C(5)(n) page 22, an entity is
a non-individual that owes an outstanding improper payment. The term entity excludes an individual
acting in either a personal or commercial capacity (that is, a sole proprietor) or Federal, State, and local
government agencies.
30
  SSA OIG, The Social Security Administration’s Reporting of High-Dollar Overpayments Under
Executive Order 13520 in FY 2011 (A-15-11-01140), December 2011.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)                        7
Website Submission

According to the Executive Order, 31 agencies are required to submit certain information,
subject to Federal privacy policies and, to the extent permitted by law, to the improper
payments Website. 32 This information should include

1. names of the accountable officials;
2. current and historical rates and amounts of improper payments, including, where
   known and appropriate, causes of the improper payments;
3. current and historical rates and amounts of recovery of improper payments, where
   appropriate (or, where improper payments are identified solely on the basis of a
   sample, recovery rates and amounts estimated on the basis of the sample);
4. targets for reducing as well as recovering improper payments, where appropriate;
   and
5. entities that have received the greatest amount of outstanding improper payments
   (or, where improper payments are identified solely based on a sample, the entities
   that have received the greatest amount of outstanding improper payments in the
   applicable sample).

Along with providing the above information to OMB’s improper payments Website, SSA
created a Website that provides additional details on improper payments. 33 Our review
of the Website confirmed its information accurately reflected the data in SSA’s Annual
Report.

Risk and Oversight Assessed by the OIG

To assess the level of risk for the SSI and RSDI programs, we reviewed the
Government Accountability Office’s (GAO) 34 High-Risk Series reports to Congress. In
1997, 35 GAO identified the SSI program as a new area of high-risk. After enacting
legislation 36 to improve overpayment recovery and deterrence tools, the SSI program




31
   74 Fed. Reg., supra note 1 at 62201 to 62202, Sec 2(b). See also, OMB Circular A-123, supra note 9,
at Appendix C, Part III, Section (C)(6)(s) page 23, which contains the same requirements.
32
     http://www.paymentaccuracy.gov.
33
     http://www.ssa.gov/improperpayments.
34
 Effective July 7, 2004, GAO’s legal name was changed from the General Accounting Office to the
Government Accountability Office.
35
     GAO High-Risk Series, An Overview (GAO/HR-97-1), February 1997.
36
     Foster Care Independence Act of 1999, Pub. L. No. 106-169, Title II, 113 Stat.1822, 1831 (1999).


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)                  8
was removed from the list in 2003. 37 However, as of 2003, 38 GAO had identified all
Federal disability programs, including the disability portion of the SSI and DI programs,
as high-risk areas. GAO stated that current demographics have affected SSA’s ability
to manage workloads and provide timely and accurate disability decisions. Therefore,
the disability portion of the SSI program remains a high-risk area. In contrast, GAO has
not identified the RSI program as a high-risk program. As of February 2011, 39 Federal
disability programs remained a high-risk area.

We continue to oversee the SSI and RSDI programs through various audits and
evaluations. For the period October 1, 2011 through March 31, 2012, we issued
54 reports on a variety of challenges that faced the Agency and identified over $1 billion
in questioned costs and $1.4 billion in Federal funds that could be put to better use. We
will continue monitoring SSA's programs by conducting and supervising comprehensive
financial and performance audits and making recommendations to maximize the
effective operations of the Agency’s programs most vulnerable to fraud and abuse.

ACCURACY OF REPORTED INFORMATION

We requested supporting documentation for all figures in the Annual Report. SSA
provided supporting documentation for all figures in the Report; however, we noted two
errors for monetary figures and one error for non-monetary figures for which the
supporting documentation did not accurately reflect the Report’s data. The
discrepancies, however, were not substantive to the overall report content (see list of
discrepancies in Appendix E). We informed SSA of these discrepancies during our
review, and the Agency has corrected two of the amounts in the Annual Report posted
on its improper payments Website. The Agency stated it is researching the correct
reporting of CDR numbers and will make the applicable change to the non-monetary
figure upon completion of the research.




37
     GAO High-Risk Series, An Update (GAO-03-119), January 2003, page 7.
38
     Id.
39
     GAO High-Risk Series, An Update (GAO-11-278), February 2011.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)   9
                                  Matters for Consideration
During our review, we noted the Agency generally presented all information required for
Executive Order 13520 in its Annual Report. The Agency did not report all required
information for the corrective actions for the SSI program. We also noted two instances
of monetary figures and one non-monetary figure that were inaccurate based on the
supporting documentation provided. The Agency should have detected the errors
through its quality review process. SSA should ensure that all figures in the report are
properly stated based on supporting documentation and all required information is
reported.

To ensure the prevention, collection, and detection of improper payments continue
improving, SSA should continue efforts to address improper payments. Specifically,
SSA should evaluate legislative proposals to determine those that would have a positive
effect on the prevention, collection, and detection of improper payments. Additionally,
SSA should continue seeking funding to cover the full cost of program integrity
workloads, such as CDRs and SSI redeterminations.

Since the two corrective actions, AFI and SSITWR, have been rolled out nationwide,
SSA should continue evaluating the SSI and RSDI programs to identify additional
improvements in the processes for preventing, collecting, and detecting improper
payments. The Agency has not shared any additional initiatives with us. Continuous
efforts are needed to ensure improper payments are detected timely.

At the conclusion of our review, SSA provided the following comment to our report.

       We will continue to consider legislative proposals to improve program
       integrity, and to seek funding in our annual budget submission to cover
       the cost of these workloads.          In addition, we are continuously
       enhancing our statistical predictive models for the Retirement,
       Survivors, and Disability Insurance and the Supplemental Security
       Income (SSI) programs. We are also developing pilots for new
       initiatives to support program integrity as funding permits.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)   10
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Executive Order 13520, Reducing Improper Payments
APPENDIX D – Defining Erroneous Payments
APPENDIX E – Discrepancies in Annual Report
APPENDIX F – OIG Contacts and Staff Acknowledgments




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)
                                                                           Appendix A

Acronyms
    AFI                Access to Financial Institutions
    AFR                Agency Financial Report
    APP                Annual Performance Plan
    CDR                Continuing Disability Review
    CIGIE              Council of Inspectors General on Integrity and Efficiency
    DI                 Disability Insurance
    Fed. Reg.          Federal Register
    FY                 Fiscal Year
    GAO                Government Accountability Office
    IPIA               Improper Payments Information Act of 2002
    ISM                In-kind Support and Maintenance
    OASI               Old-Age and Survivors Insurance
    OIG                Office of the Inspector General
    OMB                Office of Management and Budget
    OQP                Office of Quality Performance
    PAR                Performance and Accountability Report
    Pub. L. No.        Public Law Number
    RSDI               Retirement, Survivors and Disability Insurance
    RSI                Retirement and Survivors Insurance
    SSA                Social Security Administration
    SSI                Supplemental Security Income
    SSITWR             Supplemental Security Income Automated Telephone Wage
                       Reporting System
    U.S.C.             United States Code




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)
                                                                        Appendix B

Scope and Methodology
Our objectives were to review the Accountable Official’s Annual Report to the Office of
the Inspector General (OIG), as required by Executive Order 13520, Reducing Improper
Payments, and determine whether the (1) figures presented were accurate and
(2) Agency complied with all requirements of the Executive Order. To accomplish our
objectives, we:

• Reviewed the Accountable Official’s Third Annual Report under Executive Order
  13520, Reducing Improper Payments, March 14, 2012.

• Reviewed applicable Federal laws.

• Reviewed applicable Office of Management and Budget guidance.

• Reviewed the Fiscal Year (FY) 2009 Stewardship Review Reports for the Old-Age,
  Survivors and Disability Insurance and Supplemental Security Income programs.

• Reviewed the FY 2010 Stewardship Review Reports for the Old-Age, Survivors and
  Disability Insurance and Supplemental Security Income programs.

• Reviewed the Improper Payments Information Act of 2002 section of the
  FY 2011 Performance and Accountability Report.

• Requested data from the Office of Quality Performance to support the figures
  presented in the Annual Report.

• Analyzed the source data to ensure the accuracy of all figures.

• Analyzed the narrative of the report to ensure compliance with all requirements of the
  Executive Order.

We performed our review in May through July 2012 in Baltimore, Maryland. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)
                                                                        Appendix C
Executive Order 13520, Reducing Improper Payments




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141) C-1
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141) C-2
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141) C-3
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141) C-4
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141) C-5
                                                                                                                               Appendix D

Defining Erroneous Payments 1
The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting status,
reasons for the payments, and their classification. There are two classifications.

•     Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered “erroneous” and may
      still be subject to recovery.
•     Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
      changes in administrative actions.

    Types of Payments             Program         Current Status           Reason for Overpayment/Underpayment                       Classification
                                   2          3
Payments following a             DI and SSI       Not currently     When SSA is required by law to make payments during the          Unavoidable
cessation of eligibility                          reflected as an   appeals process, these payments are not erroneous.
due to a continuing                               error
disability review
Payments made under              SSI              Reported as an    When due process requires that SSI payments continue,            Unavoidable
the Goldberg-Kelly                                unavoidable       although the Agency has determined that a payment reduction
due-process Supreme                               erroneous         or termination is in order, such payments are not erroneous.
Court decision                                    payment in the
                                                       4
                                                  APP
Payments made                    SSI              Reported as an    The law requires that SSI payments be made on the first of the   Unavoidable
incorrectly because of                            unavoidable       month based on projected income for that particular month.
program design                                    erroneous         Changes in the recipient’s status can occur during the month,
                                                  payment in the    which causes the recipient’s eligibility to change. Because
                                                  APP               SSA cannot prevent the overpayment, this situation should not
                                                                    be reflected in the Agency’s erroneous payment rate.

1
    Table provided by SSA’s Office of Financial Policy and Operations in July 2010.
2
    Disability Insurance (DI).
3
    Supplemental Security Income (SSI).
4
    Annual Performance Plan (APP).


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)                                                     D-1
                                 5
Payments issued after      OASI, DI,          Not currently     Dollars released after death (either electronically or in the form   Unavoidable
death                      and SSI            reflected as an   of a paper check) that are reclaimed by the Department of the        except for fraud
                                                    6
                                              error             Treasury or returned unendorsed should not be reflected in the       or misuse
                                                                Agency's erroneous payment rate. Conversely, payments
                                                                made after death that are improperly cashed or withdrawn, and
                                                                are subject to overpayment recovery, should be reported.

Non-receipt of payment     OASI, DI, and      Not currently     Duplicate payments issued in accordance with the Robinson-           Unavoidable
                           SSI                reflected as an   Reif Court decision are unavoidable and should not be                except for fraud
                                              error             reflected in the Agency's reports on erroneous payments. The         or misuse
                                                                only exception is duplicate payments incorrectly sent to
                                                                abusers.
Payments based on          DI and SSI         Not currently     Payments are not erroneous if they are the result of a medical       Should not be
medical eligibility                           reflected as an   improvement review standard or a situation where the                 included in the
                                              error             beneficiary would have been ineligible had the law permitted         erroneous
                                                                retroactive ineligibility.                                           payment
                                                                                                                                     estimate
Payments made for          DI and OASI        Not currently     When program design requires that the Agency make                    Unavoidable
Title II beneficiaries                        reflected as an   payments based on estimated earnings, these payments
based on earnings                             error             should not be considered erroneous.
estimates
Undetected error           OASI, DI, and      Not currently     The Agency should not reflect undetected error in its erroneous      Should not be
                           SSI                reported as an    payment rate unless it has evidence that a specific type of          included in the
                                              error             erroneous payment was made.                                          erroneous
                                                                                                                                     payment
                                                                                                                                     estimate
Duplicate payments to      Administrative     Not currently     Agency systems do not capture when the overpayment occurs;           Avoidable
attorneys, vendors, and    Expense            reported as an    however, this type of error does not meet the reporting
employees                                     error             threshold.




5
    Old-Age and Survivors Insurance (OASI).
6
 Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review
protocol.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)                                                      D-2
                                                                                Appendix E

Discrepancies in Annual Report 1

Location in Annual Report                           Discrepancy Explanation2

Page 11 – Table: Major Supplemental Security        The Social Security Administration (SSA) reported
Income Error Dollar Overpayments                    the amount of overpayments related to Wages and
                                                    In-Kind Support and Maintenance as $942 million
                                                    and $517 million, respectively. Supporting
                                                    documentation showed $709 million and
                                                    $290 million, respectively.


Page 18 – Graph: Continuing Disability Reviews      SSA reported the Fiscal Year (FY) 2010 number of
                                                    Full Medical Continuing Disability Reviews as
                                                    324,567. Supporting documentation showed
                                                    322,415 reviews conducted in FY 2010.




1
 SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments,
March 2012.
2
  We informed SSA of these errors during our review, and the Agency has corrected the errors on page
11 in the Annual Report posted on its improper payments Website. The Agency stated it is researching
the correct reporting of CDR numbers and will make the applicable change to the graph upon completion
of the research.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Judith Kammer, Audit Manager, Financial Audit Division

Acknowledgments

In addition to those named above:

   Kelly Stankus, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-12-12141.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2012 (A-15-12-12141)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
